<html>
<title> - IRAQ AND SYRIA GENOCIDE EMERGENCY RELIEF AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      IRAQ AND SYRIA GENOCIDE EMERGENCY RELIEF AND ACCOUNTABILITY

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2017

                               __________

                           Serial No. 115-84

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
27-060PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a> 
                                             
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Frank Wolf, distinguished senior fellow, 21st 
  Century Wilberforce Initiative (former U.S. Representative)....     5
Shireen, Yazidi survivor of ISIS enslavement.....................    11
Ms. Lauren Ashburn, managing editor and anchor, Eternal Word 
  Television Network.............................................    15
Mr. Stephen Rasche, legal counsel, Director of Internationally 
  Displaced Persons Assistance, Chaldean Catholic Archdiocese of 
  Erbil..........................................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Frank Wolf: Prepared statement.....................     8
Shireen: Prepared statement......................................    13
Ms. Lauren Ashburn: Prepared statement...........................    17
Mr. Stephen Rasche: Prepared statement...........................    22

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
Mr. Stephen Rasche:
  Proposal to USAID (Ninevah Reconstruction Committee USA).......    44
  Statement of the Heads of the Christian Churches in the 
    Kurdistan Region on the Referendum Crisis....................    52
  Assessing UNDP Minority Projects...............................    55
  U.N. Completed Project for Iraqi Christians....................    57
  United Nations Development Programme, Funding Facility for 
    Stabilization, Iraq..........................................    60
The Honorable Frank Wolf: Northern Iraq 2017.....................    62
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Written testimony from Yazda Global Organization    70
Written responses from Mr. Stephen Rasche to questions submitted 
  for the record by the Honorable Christopher H. Smith...........    78

 
      IRAQ AND SYRIA GENOCIDE EMERGENCY RELIEF AND ACCOUNTABILITY

                              ----------                              


                        TUESDAY, OCTOBER 3, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everyone.
    In August 2014 ISIS began committing genocide against 
Christians and Yazidis in Iraq. Three years later those 
persecuted are still not receiving assistance that they need 
from the United States, and so their very survival in their 
ancient homeland is in jeopardy. Two consecutive secretaries of 
state and the Congress have declared that ISIS is responsible 
for the genocide.
    This year, the President and Vice President declared the 
genocide and committed the administration to provide relief to 
the surviving religious and ethnic minority communities. In the 
final appropriations bill for fiscal year 2017, Congress 
required that the State Department and U.S. Agency for 
International Development (USAID) fund the assistance promised 
by the administration.
    Sadly, career staff at the State Department and USAID have 
ignored the law and thwarted the will of the President, the 
Congress, and the people we represent. These bureaucrats have 
refused to direct assistance to religious and ethnic minority 
communities, even to enable them to survive genocide. This 
obstruction is unacceptable. And I urge Secretary Tillerson and 
the new USAID administrator, Mark Green, to put an end to it. I 
met with Mark a little over a week ago in New York at the U.N. 
General Assembly, and my hope is that he will act upon that 
request.
    I chaired my first hearing on atrocities against religious 
and ethnic minorities in Iraq and Syria in September 2013. This 
hearing today is the tenth I have chaired focusing whole or in 
part on their plight. Last September I introduced bipartisan 
legislation, co-authored by my good friend and colleague, 
Representative Anna Eshoo, explicitly authorizing the State 
Department and USAID to identify the needs of these communities 
and fund entities, including faith-based entities, effectively 
providing them with aid on the ground.
    Even though the U.S. has the authority to provide such 
assistance, we are aware some in the bureaucracy inaccurately 
claim that they lack the authority, so we wanted to remove this 
excuse.
    It is also important to have a detailed authorization as 
the foundation for the forthcoming preparations. Partially 
informed by my own trip to Erbil last December to meet 
firsthand with genocide survivors, we introduced this 
legislation again as H.R. 390, almost immediately after the 
start of the new Congress, with even stronger support from both 
sides of the aisle, and many Christian and Yazidi 
accountability human rights groups, and numerous leaders.
    The House passed it unanimously in early June. And the 
Senate Foreign Relations Committee passed it unanimously on 
September 19th. There has been no subsequent action in the 
Senate, however. And so I respectfully ask the Senate to 
immediately pass H.R. 390.
    This hearing will explore the urgent crisis for Christians 
and Yazidi genocide survivors, especially in Iraq; what the 
administration can do now to enable them to survive; and what 
the consequences will be for these communities and our national 
security if we fail to act.
    As you will hear from several of our distinguished 
witnesses, helping these communities survive and return to 
their homes will reduce threats from Iran. It will also deny 
ISIS a major propaganda victory and recruiting tool.
    Before proceeding to the witnesses I would note that the 
State Department and USAID were invited to testify at today's 
hearing. They were unavailable. We will try again and convene 
yet another hearing in order to try to hear from them.
    Our first witness today is known to many of you, perhaps to 
all of you, my dear friend for many years, the former 
representative from the 10th District of Virginia, Frank Wolf. 
He was elected the same year Ronald Reagan got elected in 1981. 
He is here today as the distinguished senior fellow at the 21st 
Century Wilberforce Initiative. And he visited northern Iraq 
again this past August.
    In his statement he points out that he believes that if 
bold action is not taken by the end of the year, he believes a 
tipping point will be reached, and we will see the end of 
Christianity in Iraq. Imagine that--the end of Christianity in 
Iraq. Regarding the Yazidis, although Sinjar has been liberated 
from ISIS since the fall of 2015, it is currently controlled by 
multiple different militia groups. Few families have been able 
to return, and few aid groups work in the area.
    Congressman Wolf also raises the alarm about the Iran-
backed militias filling the post-ISIS liberation vacuum as part 
of Tehran's ``goal of creating a land bridge from Iran to allow 
Iran to move fighters, weapons, and supplies to aid Hezbollah 
and other terrorist groups.'' He also offers several concrete 
policy recommendations that the administration and the Congress 
should heed immediately.
    I would note parenthetically that Frank Wolf is a champion 
on a whole lot of issues but perhaps none more than in the area 
of international religious freedom. He is the prime author of 
the 1998 International Religious Freedom Act, landmark 
legislation that in a multiple of areas established the State 
Department's Office on Religious Freedom and, most importantly, 
made it a priority within the administration, including the 
importance of training Foreign Service officers about religious 
freedom, about religious institutions, which they had not 
gotten previously.
    It also established the independent Commission on 
International Religious Freedom which acts as a watch dog, 
provides its own extraordinarily useful insight as to what 
needed to be done in the area of religious freedom. And those 
two major components, the State Department and the independent 
Commission, have made an enormous difference, and just last 
Congress passed legislation, named in Frank Wolf's honor, the 
Frank Wolf International Religious Freedom Act, which took many 
of the ideas that were gleaned and learned over the course 
since 1998, put them into law, including the importance of 
holding individuals who commit acts, crimes, and atrocities 
against believers to account, and also to create lists of those 
prisoners of conscience in order to act on their behalf, which 
is exactly what I know Mr. Wolf had envisioned in his earlier 
law.
    Our second witness will be Shireen, a Yazidi survivor of 
ISIS enslavement. She wrote in her statement that captivity 
under ISIS was ``like Hell. They performed . . . abdominal 
surgery on me'' and ``I am suffering from the effects of it.'' 
``They committed all kinds of'' atrocities ``against us, 
including mass killing, sexual enslavement, and forced 
conversion.''
    Shireen also wrote, and I quote, ``19 members of my family 
and my relatives are missing. They may be killed or still in 
captivity but we don't know anything about them. We are still 
waiting for action and the liberation of thousands of Yazidis 
from ISIS captivity.''
    She warns that ``Yazidis, Christians and other religious 
minorities, especially the non-Muslim minorities, cannot 
survive in Syria and Iraq under the current conditions. Without 
serious action from you,'' meaning us, the Congress, and the 
White House, ``and the world governments many of these people 
will continue to flee their ancient homelands of Syria and 
Iraq.''
    Our third witness will be Lauren Ashburn, the managing 
editor and anchor of EWTN News Nightly. She traveled to 
northern Iraq earlier this year and has continued to report on 
the crisis. Her story telling and video, rooted in more than 20 
years as journalist, has helped to tell the amazing stories of 
heroism, indomitable faith, and survival for those who have 
been victimized.
    As she reported in her written testimony for this hearing, 
Christians in Iraq are on the brink of extinction. ``The United 
States is the only nation in the world that can provide 
concrete aid to rebuild the community that I saw in shambles.''
    Our fourth and final witness today will be Stephen Rasche, 
legal counsel and director of the IDP Resettlement Program for 
the Chaldean Catholic Archdiocese of Erbil, and legal counsel 
and chief coordinator for the Nineveh Reconstruction Committee.
    Mr. Rasche testified before a hearing I chaired on the 
Helsinki Commission last September. And he had dire news for us 
then. He reports in his written testimony today, ``I regret to 
say that we still have not received any form of meaningful aid 
from the United States Government. While we have found the 
political appointees much more willing to help us since 
January, the fact is that even after the better part of a year, 
they have been unable to move the bureaucracy to take 
meaningful action.''
    The Obama administration channeled all U.S. funding for 
stabilization in Iraq through the funding facilities for 
stabilization administered by the U.N. Development Program, the 
UNDP. And the current administration, sadly, has continued that 
policy. Mr. Rasche testified in his written statement, ``While 
status reports of UNDP work in Nineveh purport to show real 
progress, in the Christian minority towns on the ground we see 
little evidence of it. Work projects are in most cases cosmetic 
in nature and much of that cynically so. In effect, U.S. 
taxpayers are financing the spoils of genocide.''
    As an alternative option for U.S. assistance he details 
Nineveh Sustainable Return Program, an initiative of the 
Ecumenical Nineveh Reconstruction Committee, to repair homes 
damaged or destroyed by ISIS. The program has already rebuilt 
several thousand homes and enabled thousands of Christian 
families to return, mostly funded by the Knights of Columbus 
and Aid to the Church in Need, with some additional funding 
from the Government of Hungary.
    Last month the Nineveh Reconstruction Committee USA 
submitted a proposal to USAID to ensure that the project can be 
completed and many more families can return.
    I strongly support this time-sensitive proposal and call on 
USAID Administrator Green to ensure that a decision is made as 
soon as possible. Because of the resistance among career staff 
at USAID to direct the assistance to religious and ethnic 
minority communities even though they were targeted for 
genocide, it is imperative that officials appointed by the 
President are part of the review process, and that the final 
decision be made by the Presidential appointees.
    I am including the proposal as part of the record.
    Finally, he says in his testimony, ``Today, as I speak to 
you, we are caught fully exposed and at-risk, finding ourselves 
at a critical historical inflection point,'' Congressman Wolf 
called it a tipping point, ``foreign aid decisions over which 
will determine whether Christianity, and religious pluralism, 
vital to the U.S. national interest and regional security, will 
survive in Iraq at all.''
    Mr. Suozzi, I would like to recognize my good friend for 
any comments you might have.
    Mr. Suozzi. Mr. Chairman, I just want to thank you for 
calling attention to this very important issue. Genocide is a 
real reality of today's world, and ISIS is committing these 
atrocities. And we need to call attention to what they are 
doing to these ethnic minorities throughout this entire region.
    So I thank you so much for calling attention to this issue. 
And I look forward to hearing the witness' testimony.
    Mr. Smith. I thank my good friend from New York.
    And I would like now to invite our distinguished witnesses 
to the witness table and so we can begin.
    I would like to now welcome Congressman Frank Wolf to 
present his testimony. Again we thank him for his decades-long 
commitment to religious freedom. As I said in my comments a 
moment ago, he is the William Wilberforce of Congress who has 
made the difference, the difference in religious freedom around 
the world. His legislation has had consequences that are awe 
inspiring.
    I yield to you.

  STATEMENT OF THE HONORABLE FRANK WOLF, DISTINGUISHED SENIOR 
   FELLOW, 21ST CENTURY WILBERFORCE INITIATIVE (FORMER U.S. 
                        REPRESENTATIVE)

    Mr. Wolf. Well, thank you, Mr. Chairman. I want to thank 
you for your efforts. And I also want to thank your staff. Your 
staff has done an outstanding job and I want to thank them and 
all the members of this subcommittee for this effort.
    After a week visiting Bartella, Qaraqosh, Duhok, Erbil, 
Mosul, Nimrud, Mt. Sinjar, and Sinjar City in August and 
talking with individuals in the various communities, I am sad 
to say that if bold action is not taken by the end of the year, 
I believe a tipping point will be reached and we will see the 
end of Christianity in Iraq in a few short years and a loss of 
religious and ethnic diversity throughout the region, a loss 
which will not be regained and could result in further 
destabilization and violent extremism and terrorism across the 
Middle East. In other word, ISIS will have been victorious in 
their genocidal rampage unless concrete action is taken.
    Iraq is a land rich with Biblical history. Abraham was born 
there, Daniel lived and died there, and many events in the 
Bible took place in Iraq. And yet, we have already seen the 
Christian population drop from 1.5 million to 250,000, or less, 
over the course of the last 14 years. This exodus continues 
with additional families leaving every day in search of 
physical security, economic security, and education.
    Having spent the past 3 years as Internally Displaced 
People, IDPs, many Christian families are at a crossroads, 
having to decide whether or not they should return to their 
newly liberated villages or leave Iraq forever. Despite their 
best efforts, many believe that they can stay only if bold 
action is taken by the United States Government and other 
international partners to ensure, ensure their future security.
    While I was expecting to hear further reports about 
security concerns related to ISIS, I was surprised to find that 
most individuals everywhere we went I spoke with were concerned 
about the various military factions controlling their towns and 
villages, in particular Hashd al-Shaabi, also known as the 
Popular Mobilization Force, or PMF. The Hashd al-Shaabi 
militia, which is backed to a large degree by Iran, and other 
militia groups are filling the vacuum left post-liberation. 
This is part of the Iranian goal of creating a land bridge from 
Iran through Iraq to Syria to reach a port on the 
Mediterranean. Such a land bridge will allow Iran to move 
fighters, weapons, and supplies to aid Hezbollah and other 
terrorist groups. This will be a direct threat to Israel and a 
direct threat to the United States military, as well as others 
in the West.
    Among the Yazidi community we heard many of the same 
concerns. Sinjar is a prime example of the complications the 
minority communities on the ground continue to face. Considered 
a contested territory by the Central Government and the 
Kurdistan Regional Government, Sinjar has been liberated from 
ISIS since the fall of 2015. However, it is currently 
controlled by multiple different multiple militia groups. Due 
to this, few families have been able to return.
    As we drove through, periodically we would see a little 
house, but very, very few.
    And few aid groups work in the area due to the potentially 
volatile situation. After having been the victims of genocide, 
and with 3,000, almost 3,000 of their woman and girls still 
being held in captivity, one of the Yazidi religious leaders we 
met with stated, ``We just want to be able to live.''
    Unfortunately, to a large extent, U.S. Government 
assistance has not been forthcoming to Iraq's Christians and 
Yazidi communities even though the President, the Vice 
President, Congress, and Secretary of State have declared them 
victims of genocide. Many of the displaced Christians, for 
example, have had to seek the mainstay of their aid from 
private charitable sources on a piecemeal basis over the last 3 
years. This is becoming more difficult, Mr. Chairman, as many 
individuals who give to humanitarian organizations are facing 
donor fatigue.
    It is imperative that the United States help the Christians 
and the Yazidis to return to their hometowns. As a U.N. 
official aptly stated in a recent meeting, they said, ``the 
religious minorities need unique solutions. What works to 
return Sunni Muslims to Mosul will not work to return religious 
minorities to contested territories.''
    Since 2014, Congress has had well over 40 different 
hearings related to ISIS, including at least seven specifically 
on the topic of the religious minorities, and required the 
State Department, the U.S. Agency for International Development 
to spend some funds on assistance specifically for genocide 
survivors from religious and ethnic minorities. Congressional 
resolve, and the force of law, must be matched by 
administration action.
    In closing, some recommendations: 1) Now that the military 
battle with ISIS is largely over, our Government needs fresh 
eyes on the target, fresh eyes in Iraq with regard to our 
current policies, not only for the victims of genocide, and war 
crimes, and crimes against humanity, but also because of the 
critical national security interests in the region. Failure to 
act soon may result in chaos and violence in the region yet 
again.
    The United States has a vested interest in promoting peace 
and stability in a region where over 4,000 Americans gave their 
lives and $2 trillion of taxpayer money was spent over the last 
13 years. A high-level group of individuals with expertise in 
the region should be brought together by the administration to 
do an assessment of the current situation and make 
recommendations for our policy going forward.
    2) A Presidential Decision Directive or Presidential 
memorandum should be issued directing the State Department and 
USAID to immediately, to immediately address the needs to 
communities identified by Secretary Tillerson as having been 
targeted for genocide. This would address both humanitarian aid 
for those living as IDPs and refugees, and stabilization 
assistance for those returning to the areas.
    3) A post should be established, it must be established by 
the White House for an interagency coordinator to guarantee 
that the needs of these communities are adequately addressed to 
ensure their safety and preservation consistent with United 
States foreign policy. When President Bush appointed Senator 
John Danforth to be the envoy to work on similar issues in 
Sudan, the announcement was made in the White House Rose Garden 
with Senator Danforth standing between President Bush and 
Secretary of State Colin Powell. This, Mr. Chairman, sent a 
powerful message to the world, and also to government 
employees, the suffering people of Sudan also.
    And so I recommend the same level of announcement for the 
person who will fill this position. Keep in mind, personnel is 
policy. You put the right person and they can get this job 
done. It should be held at the White House with President Trump 
and Secretary Tillerson. This will send a message that America 
is engaged. The Christians and the Yazidis have faced genocide; 
for the longest period of time the United States and the West 
has offered little more than words.
    Lastly, fourthly, Congress should immediately pass H.R. 
390, the bipartisan Iraq and Syria Genocide Emergency Relief 
and Accountability Act, authored by you and co-authored by 
Congresswoman Anna Eshoo. It gives explicit authorization for 
the State Department and USAID to identify the assistance needs 
of genocide survivors from religious and ethnic minority 
communities and provide funding to entities, including faith-
based entities, effectively providing them with aid on the 
ground.
    It is essential because some within the State Department 
and USAID have claimed they lack the authority to deliberately 
help religious and ethnic communities, even if they are 
genocide victims. They are genocide victims. They may be 
Christians, they may be Yazidis. They are genocide victims and 
they will become extinct, extinct without assistance.
    Although there is nothing in U.S. law preventing them from 
helping genocide-surviving communities, the authorization will 
help ensure that aid actually flows to the victims. The House 
passed the bill, Senate Foreign Relations passed it on 
September 19th. The Senate should pass it quickly so it can be 
sent back to the House and for the President to sign it.
    Mr. Chairman, in closing, there is still time but the hour 
is late. And we are about to run out of time. We cannot--
history will judge the administration, the Congress, and the 
West--allow ISIS to be successful in their genocide.
    [The prepared statement of Mr. Wolf follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------    
                              

    Mr. Smith. Thank you very much, Congressman Wolf.
    Shireen.

   STATEMENT OF SHIREEN, YAZIDI SURVIVOR OF ISIS ENSLAVEMENT

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Shireen. My name is Shireen Jerdo Ibrahim. I am a 
Yazidi girl, a survivor of ISIS from Rambusi village, which is 
a village on the south side of Mt. Sinjar near Sinjar town.
    On August 3rd when we were at home my uncle called me from 
another village, a Yazidi village, and said that the Peshmerga 
forces have withdrawn and ISIS attacked our areas. He advised 
me to leave to the mountain.
    We got a few things ready, locked the doors, and got in our 
trucks and headed toward the mountain. Before we got there our 
truck broke down, so we decided to continue on foot. At the 
foothill of the mountain ISIS came with their trucks and 
captured all of us.
    When they stopped us they returned us to a wedding hall 
which was near Sinjar town. When they unloaded everybody from 
trucks, right in the front of everyone they executed a young 
Yazidi man because he wanted to stay with his family.
    Then they took us to another building and they separated 
families. They separated women and men. They separated my 
younger sister from me. And her hand was in my hand; they 
separated her from me. And they hit me with a weapon.
    They took us to Badoosh which there was a prison in Badoosh 
that they put all the families with me in there.
    Then I was moved from Badoosh Prison to Kashumahar village 
which is near Tal Afar. And then they sold me to someone in 
Raqqa in Syria. In Syria I was tortured.
    Then I was brought to Mosul. I was told five times when I 
was in captivity during this time in captivity I was not the 
only one. I saw many Yazidi girls. There were hundreds and 
thousands of Yazidi girls there being sold as sex slaves.
    I was lucky to be able to escape. But others remained in 
captivity. Still we have thousands of Yazidi women and boys in 
captivity. As I speak to you today I have 19 members of my 
family missing. I have no idea where they are, if they are 
killed, if they are missing, if they are in captivity.
    Our hope was that somebody would help those in captivity 
and give us a conclusion about what happened to our family 
members. It's been 3 years. Our hope is that our areas were 
going to be rebuilt, some security will be provided for us 
after what happened to us. And they will help us, you know, 
free those in captivity, our family members.
    It is true that the United States and the many other 
countries recognize what happened to Yazidis as a genocide. But 
our hope was that this would be followed by action: Our areas 
will be rebuilt and security will be provided. They will take 
those who committed crimes against us and who sold us as sex 
slaves will be brought to justice, and not let them get away 
with what they did. Our hope is that Yazidis will be assured 
that they will be able to go back to their homes, or if they 
can't live in their homes they will be able to immigrate 
somewhere else because it is not easy for them to go back again 
and live under the same conditions.
    You know, when ISIS came their goal was to eradicate 
Yazidis and Christians from Iraq. Their main goal was to attack 
them. And they succeeded. They displaced all of us. They 
murdered many Yazidis. And Yazidis and Christians and other 
small minorities will not be able to live there under the same 
environment.
    I mean it is out there, what ISIS did to us is out there. 
It is known to everyone. They displaced thousands. They killed 
thousands of Yazidis. Inside the liberated areas we see mass 
graves, almost every week we see mass graves. There are about 
40 mass graves so far. Some people see bones for their 
relatives, but others don't even know if their relatives were 
executed or still in captivity.
    There are hundreds, if not thousands, of boys who were 
rescued or escaped from ISIS captivity living in camps, in IDP 
camps. Some of them don't even speak their own language, they 
speak Arabic because of what ISIS did to them.
    Those families who lost members, many members, just like my 
family, they have been living in these IDP camps for 3 years 
under the same tents. Families don't have income. They don't 
have a way of living in these camps. So it has been 3 years and 
people are looking for a solution.
    Our hope is that whoever can hear me today, or all of you, 
can help those Yazidis who are rescued. If they are rescued 
that doesn't necessarily mean they are okay. Some of them 
living in camps are traumatized. They need psychological and 
social support. They need a home to live in, not a camp that 
had been set up 3 years ago.
    So, our hope is that a real solution will be provided for 
those families who suffered under ISIS.
    We heard reports that some Yazidi boys even ended up in 
Saudi Arabia. They sold them to each other. They brainwashed 
them. They trained them. We don't know anything. Almost all of 
Iraq is liberated now and thousands are missing; we don't know 
what happened to them. Families are looking for their members. 
They have no idea what to do.
    We are hoping that something will be done, and quickly 
done. It has been 3 years and the solution is not there yet. We 
haven't seen any action in this regard.
    It is true that ISIS has been pushed out from Iraq but the 
ideology remains there. So even if they are gone, as Yazidis 
and Christians go back to their homes and there is the same 
ideology, a different group may attack us. So people are not 
able to go back unless some security is provided for them and 
some guarantees.
    Thank you for giving me the opportunity to tell my story 
and the story of my community and the Christian community and 
what we are suffering in Iraq.
    [The prepared statement of Ms. Shireen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Shireen, thank you very much for your very 
powerful and heartbreaking testimony. It just brings again 
before the Congress what victims have suffered and continue to 
suffer. And thank you for your bravery in bringing this forward 
to us.
    Know that all of our prayers are with you. And thank you.
    Ms. Ashburn.
    Mr. Suozzi. I just want to add, we want you to know, Ms. 
Shireen, how courageous it is of you to show up like this. And 
we are very grateful to you for educating us about what is 
happening to your family and to other people that you know in 
your community.
    Thank you so much.

 STATEMENT OF MS. LAUREN ASHBURN, MANAGING EDITOR AND ANCHOR, 
                ETERNAL WORD TELEVISION NETWORK

    Ms. Ashburn. Chairman Smith, members of the subcommittee, 
good afternoon. Thank you for inviting me to appear before you 
today.
    In April of this year, I set out with a team from my 
network, EWTN, including journalists Susanna Pinto, Paul 
Fifield, and Tom Haller, to report on the plight of Christians 
and other religious minorities in the northen Iraqi city of 
Erbil and the Nineveh Plain to the north and east of Mosul. We 
knew that these groups had suffered genocide, as the U.S. State 
Department had recognized in March 2016, and we had read their 
harrowing experiences. But we were not prepared for the death 
and destruction we were about to witness.
    Christians in Iraq are on the brink of extinction. And I 
saw that grim reality first hand.
    My visit to the town of Batnaya in northern Iraq embodies 
the experience of Christians in that region. Islamic State 
forces controlled the Christian enclave for 2 years before 
Kurdish fighters pushed them out in November 2016. As I toured 
the devastated town, I could hear explosions from the fighting 
in Mosul, 15 miles away.
    What I saw was absolute evil in the form of devastation and 
destruction. ISIS had flattened 90 percent of Batnaya. The 
village looked like an earthquake had struck. And the danger is 
not over. There are signs everywhere there warning of IEDs and 
booby traps.
    The Catholic Church in the center of the town is still 
standing, only because ISIS used it as a command center. But it 
has been severely damaged and desecrated. A statue of the 
Virgin Mary is decapitated. Other statues are smashed to bits. 
The face of Jesus had been ripped off from paintings. Bullet 
holes mark the place where a cross once hung. Every Christian 
symbol I could see had been defaced or obliterated. I could not 
hold back my tears.
    In a nearby graveyard, Christian headstones were uprooted. 
Even the final resting place was not safe from the fury of the 
Islamic State.
    I spoke with a Christian grandmother and her daughter, who 
had fled the jihadist onslaught with their family. They sobbed 
while looking at the damage done to their home. Their whole 
life was there. They want desperately to return, but they have 
no money to rebuild, and no money is coming. Still the 
daughter's husband climbed to the roof and tied a makeshift 
cross to a metal rod sticking out of it.
    Similar scenes can be seen in other Christian towns in the 
area, including Qaraqosh, which was freed from ISIS in October 
2016; it suffered appalling damage. Many Christians in northern 
Iraq feel abandoned in the aftermath of the U.S.-led war that 
toppled Saddam Hussein. During my visit, headlines in the U.S. 
focused on the gas attack in neighboring Syria and two 
horrifying church bombings in Egypt, which killed dozens and 
were claimed by the Islamic State. But events in Iraq seldom 
get as much attention. The American public seems to have moved 
on.
    Despite having survived genocide, Christians and others in 
northern Iraq want to go back to their homeland.
    In Batnaya on Palm Sunday I witnessed a crowd of Christians 
return for the day for Mass and a procession. At the church, a 
priest, aided by volunteers, had just spent weeks cleaning up. 
He conducted the service in Aramaic, the language of Jesus 
Christ. The altar behind him was covered in rubble. The 
congregation erected a huge metal cross where the altar used to 
be, decorated with burning votive candles. They had placed palm 
branches on the crosses defaced by the Islamic State, a small 
symbol of hope over hate.
    The United States is the only nation in the world that can 
provide concrete aid to rebuild this community that I saw in 
shambles. I urge our lawmakers to give Christians and other 
religious minorities in Iraq, like the Yazidis, the resources 
they need to return home. May we show the world that we have 
not forgotten them and the United States still stands up for 
the vulnerable and for those under threat within our borders 
and beyond.
    I would like to leave you today with some compelling video 
that we gathered of the destruction as well as the rebirth of 
the Christian communities in northern Iraq. They speak for 
themselves.
    Thank you.
    [Video.]
    [The prepared statement of Ms. Ashburn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Ashburn, thank you very much for your 
excellent testimony, for bringing back for all of us to see 
those very vivid images, not only of the devastation but of the 
hope reflected in those and, you could tell, in the hearts and 
minds of the people that were being interviewed.
    I would now ask that Mr. Rasche begin his testimony. I 
would point out that when Mr. Rasche testified almost a year 
ago to the day, September 22nd, before us he said, ``It is no 
exaggeration to say without these private donors''--and he 
pointed out the Knights of Columbus, Aid to the Church in Need, 
Caritas of Italy, had provided some $26 million at that point--
``the situation for Christians in northern Iraq would have 
collapsed and the vast majority of these families would, 
without question, have already joined the refugee diaspora now 
destabilizing the Middle East and Europe.''
    He pointed out that throughout the entirety of the crisis 
since August 2014, other than an initial supply of tents and 
tarps, the Christian community in Iraq has received nothing in 
aid from the U.S. aid agencies or the United Nations. Which I 
found appalling at the time which is why, again, this is the 
10th hearing in a series that we have had. We had 
administration witnesses appear. We pleaded with them to 
provide that aid. They always say they would look into it. And 
then nothing happened.
    Now, we do have legislation as you know, H.R. 390, which 
will make sure that the job gets done. Frank Wolf has made a 
number of very important recommendations, including that point 
person to really be the catalyst to make sure that the 
Christians and the Yazidis and other minorities are cared for.
    But, again, I look forward to your testimony now, 
especially in light of you having lived this. You have been the 
IDP person. It must be agonizing to know that the resources 
should be there and have not been.

  STATEMENT OF MR. STEPHEN RASCHE, LEGAL COUNSEL, DIRECTOR OF 
INTERNATIONALLY DISPLACED PERSONS ASSISTANCE, CHALDEAN CATHOLIC 
                      ARCHDIOCESE OF ERBIL

    Mr. Rasche. Thank you, Mr. Chairman, for giving me the 
opportunity to come back and speak to you again.
    Again, my name is Stephen Rasche. And I come to you from 
Erbil in northern Iraq, but most recently to the towns that 
Lauren--from the towns that Lauren's video has just shown to 
you. The towns of Batnaya and Teleskov are where I spend most 
of my time these days, along with the other Christian towns out 
in the Iraqi sector.
    In my work in Erbil I serve on the staff of the Catholic 
Archdiocese of Erbil. And in that context I serve as legal 
counsel for external affairs, the Director of IDP Resettlement 
Programs, which includes the Nineveh Reconstruction Project.
    Since 2014, the Archdiocese of Erbil has provided almost 
all the medical care, food, shelter, and education for the more 
than 100,000 Christians that fled ISIS, as well as many Yazidis 
and Muslims who are also in our care. Mr. Chairman, I wish I 
could tell you that in the 12 months that followed since my 
last appearance here that our pleas have been heard and that 
our plight had found relief. But as I speak before you now, I 
regret to say that we have still yet to receive any form of 
meaningful aid from the U.S. Government.
    While we have found the political appointees much more 
willing to help us since January, the fact is that even after 
the better part of a year they have been unable to move the 
bureaucracy to take meaningful action. Last month, Secretary of 
State Rex Tillerson reaffirmed that Iraq's religious minorities 
were the victims of genocide. But even that declaration, 
combined with the statutary mandate--statutory mandate to aid 
these communities with funds allocated for fiscal year 2017 by 
Congress in the Consolidated Appropriations Act for May, has 
been insufficient to create action on the part of these 
agencies.
    The fiscal year ended days ago, with these agencies 
continuing to shirk their statutory obligations. Still no aid 
has been provided to the imperiled Christian minority.
    These humanitarian principles are intended to prevent aid 
from being used to punish or reward religious, national, or 
racial groups. It was and is incomprehensible to us that these 
principles have been interpreted and applied to prohibit 
intentionally helping religious and ethnic minority communities 
to survive genocide. Interestingly, these principles were 
waived last month when the Department of State's Bureau for 
Population, Refugees, and Migration provided 32 million in 
emergency humanitarian assistance to the Rohingya Muslims, a 
religious minority in Burma.
    As an American, I am proud when my country responds to a 
humanitarian crisis, but this action begs the question of why 
the State Department, which has distributed over $220 million 
\1\ in humanitarian assistance in Iraq since 2014, has 
consistently ignored the dire needs of the persecuted 
minorities in Iraq.
---------------------------------------------------------------------------
    \1\ This figure is for FY 2017 only. Since 2014 the amount is over 
$896 million.
---------------------------------------------------------------------------
    Given this, H.R. 390, the Genocide Relief Act, is a vital 
lifeline we have desperately needed for months. The House of 
Representatives passed it unanimously on June the 6th, and the 
Senate Foreign Relations Committee passed it unanimously on 
September 19th, yet still it sits in the Senate. We hope that 
they will consider our existential plight, and that time is 
short fo us, and make it law soon.
    Mr. Chairman, had we received any kind of proper assistance 
from the U.S. Government for the nearly 100,000 displaced 
Christians in our care who had to flee ISIS, we would by now 
have been able to resettle the vast majority of them back into 
their homes in the recovered towns of Nineveh. Instead, our 
pool of private donors and already limited funds have dwindled. 
We had hoped to use these resources for the return of displaced 
Christians. Instead, we had to repurpose much of these funds 
for the ongoing humanitarian needs of these same displaced 
people.
    We are, thus, faced with the excruciating decision of 
whether to continue keeping our people housed and fed in 
temporary shelters in Erbil, or return them to their destroyed 
towns with only the barest funds to rebuild in Nineveh.
    I will not repeat what you read into the record earlier 
regarding the Nineveh Reconstruction Committee except to say we 
desperately need your help, and we certainly thank you for your 
support in it.
    To close up here I would say to you we are now caught in a 
situation where we are fully exposed and at risk, and finding 
ourselves at a critical, historical inflection point. While 
status reports from the UNDP work in Nineveh purport to show 
real progress in the Christian majority towns, on the ground we 
see little evidence of it. Work projects are in most cases 
cosmetic in nature, and much of that cynically so. Completed 
school rehabilitation projects in Teleskov, and Batnaya, and 
Bartella take the form of one thin coat of painting on the 
exterior surface walls, with freshly stenciled UNICEF logos 
every 30 feet.
    Meanwhile, inside the rooms remain untouched and unusable. 
There is no water. There is no power. There is no furniture.
    I have pictures that I can show you of these worksites 
later on in the question and answer period that give a pretty 
clear picture of what the nature of the work is there.
    One more thing that I would like to note is in the UNDP 
reports claiming to show the work being done in areas in which 
religious minorities are the majority, prominently list work in 
the formerly Christian town of Telkayf. A copy of this report 
has been distributed to this committee. Mr. Chairman, there are 
no more Christians in Telkayf. They were forced from this town 
by acts of genocide, crimes against humanity, and war crimes. 
ISIS was firmly in control of this town until last fall, and 
many of its Sunni Arab residents remain.
    Many of those residents who openly welcomed ISIS while 
simultaneously engaging in forced and violent expulsion of the 
Christian majority are still there.
    Telkayf has also been chosen as a settlement site for the 
families of slain ISIS fighters. As such, 100 percent of the 
work being done in this town benefits the Sunni Arab residents 
of the town, and there is no consideration anywhere in U.N. aid 
planning for the displaced Christians, who now depend wholly 
upon the church and private sources for their survival.
    So, what can be done in all of this? As Congressman Wolf 
has said earlier, first, the Senate can pass H.R. 390 without 
further delay.
    Second, the proposal of the Nineveh Reconstruction 
Committee, now sitting with USAID Administrator Mark Green, can 
be swiftly approved and implemented.
    Third, again echoing the comments of Congressman Wolf, 
since the agencies so far have ignored the statutory obligation 
to care for genocide-targeted communities, as Congress has 
mandated, we would strongly urge that Congress urge this 
administration to appoint an interagency coordinator empowered 
to oversee and solve this issue.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Rasche follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Garrett [presiding]. The Chair recognizes the 
gentlewoman from Hawaii, Ms. Gabbard.
    So I would recognize myself. It is quite a luxury to be 
sitting in the chairman's seat where I don't have to worry 
about my 5 minutes as much.
    It is really an honor to be here in front of you all today. 
Congressman Wolf and I have known each other sort of bouncing 
off one and another for years, but I have always been a big 
admirer and respecter of the work he has done.
    There are a couple things that stood out to me today as I 
sort of took some notes and then bounced a lot of this against 
my own perspective. I had the honor of serving in the United 
States military for a number of years, and in so doing served 
right in between IFOR and SFOR as it served in Bosnia to 
implement the Dayton Peace Accords and put a halt to the 
Bosnian genocide.
    Did a little bit of quick leg work and saw that, at the 
time, that was considered to be the most costly genocidal act 
perpetrated by some, particularly and certainly on the European 
continent since World War II. And the death toll was 100,000. I 
think we are well beyond that as it relates to Yazidis and 
Christians, in Syria and Iraq specifically, but in the greater 
region in particular. And it strikes me as noteworthy that, for 
example, in Turkey the Christian population of the nation in 
1914 was 19 percent. And then following the First World War and 
the Armenian genocide it dropped to 2.5 percent in 1927, to 
today where it's at 0.2 percent, two-tenths of 1 percent.
    And we see the same thing in the area. So, about 10 days I 
got off an airplane from Khartoum in the Republic of the Sudan 
where just yesterday morning I was able to meet at the airport 
the last two of nine Christian refugees who we extracted from 
that country, the two patriarchs of these families having spent 
18 months of the last 24 in prison, essentially for providing 
foodstuffs and medicines to religious minorities in the south 
of that country. So I have tried very hard to respect the 
legacy of folks like the chairman of this subcommittee Mr. 
Smith, and Congressman Wolf, and take that message and the 
opportunity to help afforded by the privilege of serving this 
body abroad.
    Having said that, let me differentiate, as an admirer of 
Jefferson and someone who considers himself a Christian, 
although the degree to which I am a good one is probably to be 
determined by an arbiter greater than myself, between my role 
as a Member of Congress and my faith, and that is that my job 
is to not enforce my faith and tenets on others but to be an 
arbiter of that which is within the purview of government at 
the Federal level in the United States to the \1/435\th 
fraction that I command responsibility for in the one-half of 
two legislative bodies and one of three legislative branches.
    So, I say these things not as a Christian but as an 
American who has some responsibility vested in him by the 
citizens of the Fifth District of Virginia.
    There is no excuse for this. There is no excuse for a 
nation that's sought actively to put itself at the forefront of 
global justice and security for generations to stand idly by 
while one group of individuals is targeted, whether they be 
Yazidis, or Christians, or Jews, or Muslims, or what have you. 
And the silence is deafening. And those who choose not to act, 
I believe, and I will step out of my congressional shoes for a 
moment, will be held to account once again by authority far 
greater than that which is manifest in this body.
    So, Congressman Wolf called for bold action. And, 
obviously, we're a co-patron of H.R. 390. I want to commend the 
47 co-patrons, and specifically Members Schiff, Cardenas, 
Slaughter, Lipinski, Vargas, Eshoo, and Sherman for being 
Democrats on that bill. There is no reason this should be 
partisan. And my friend and colleague with whom I have worked, 
Ms. Gabbard from Hawaii, in joining us. I hope that this is 
something that should reach, and believe, a bipartisan 
consensus that holding people to account for acts that penalize 
human beings by virtue of a value structure that does nothing 
to hurt others aside from themselves would be something that we 
could unite upon, and perhaps demonstrate to the American 
people that there is some commonality in values shared in this 
body, and that we can work together to advance good causes.
    So, I say that not to cast aspersions or throw barbs, but 
to generally and sincerely invite folks to get on board. And we 
will work as an office later today to put out invitations for 
others to join us in this bill.
    But I move back to what I said, that two sets of words 
struck me. First was Congressman Wolf's call for bold action. 
Beyond H.R. 390 I would invite you to articulate what sort of 
action that would be and what we need to be doing. One thing I 
know is that I don't know everything. And that when you are 
sitting here you need to know a little bit about so many things 
that it is hard to know a lot about anything. So, you have been 
able to step away after years of wonderful service and sort of 
focus. What else do we need to be doing.
    Mr. Wolf. The President ought to appoint one person, he or 
she that has his authority. And they ought to be invited to the 
White House, whether it be the Rose Garden, to do the same 
thing that President Bush did with regard to former Senator 
John Danforth. When the Sudanese issue was unraveling, 
President Bush invited former Senator John Danforth. He came to 
the White house. They stood in the Rose Garden. It was the day 
before 9/11. I was there. And he stood between President Bush 
on one side and Secretary Powell on the other side. And the 
President made it clear, this was his person who was going to 
solve this problem.
    President Trump ought to do the same thing. The President 
needs to be engaged. So, he should invite whoever that person 
is to the White House and where the appointment would be made. 
On one side would be President Trump, the other side Secretary 
Tillerson. That will send a message to the government, to all 
employees, to the Congress, to the world, but also to the 
Yazidi community. We went out and met with the Yazidi religious 
leadership. They are suffering. They haven't seen anything to 
help them. And 3,000 girls are currently held by them. And so 
that one thing wold do more than anything else.
    And then from there, personnel would do policy, you could 
begin to change some of the policies.
    Mr. Garrett. What was the title----
    Mr. Wolf. If it doesn't get done by the end of the year, it 
is going to be over.
    Mr. Garrett. So that Senator Danforth's title was what? I 
do not recall.
    Mr. Wolf. It was called Envoy for Peace in Sudan. He was 
the one that negotiated the north/south peace agreement that 
led to the breaking up of the Sudan whereby Southern Sudan 
became a separate country.
    Mr. Garrett. Special Envoy for Oppressed Religious 
Minorities?
    Mr. Wolf. Call it whatever makes the administration feel 
comfortable. But personnel is policy. You want to put the right 
person who really cares, who weeps, who really is committed to 
this. And that person can, I think, solve the problem.
    Mr. Garrett. I got some ideas on who might fill that role 
well. But I won't, I won't editorialize.
    The other thing that struck me, there were two things. 
Again, Congressman Wolf's testimony. Again, I invite you to 
reach out. I called. You called back. And we need to close that 
loop because I hope I might be able to learn some things from 
you.
    But the other thing that really struck me was Ms. Shireen's 
words through her interpreter, ``and then I was sold.'' ``And 
then they sold me.'' It is 2017; right? I mean, we have 
problems in this country, to be sure, that are worthy of 
attention and addressing. The fact that that sort of activity 
still occurs on this Earth and that our Government has been 
largely silent and, candidly, in the interest of honesty, in a 
vacuum which we were pivotal in creating, it can't be 
justified.
    So, again, I invite members of the community to reach out 
to our office, and specifically with concrete ideas of what we 
can do. We can sort of exchange rhetorical flourish about 
injustice all day. I am with you. But the challenge is, if you 
want to be a Ph.D. you have to know something about--or 
everything about something. If you want to do this work you 
have got to know something about everything. So I need you all.
    Having said that, does anybody on the panel feel that there 
is anything that they would like to add to the discourse that 
they missed the opportunity for? Sort of an open invitation.
    I would then yield to my colleague and friend from Hawaii 
Ms. Gabbard.
    Ms. Gabbard. Thank you very much. Thanks to you all for 
your leadership and for being here.
    Ms. Shireen, it is nice to see you again. I am glad that 
you are here and continuing to share your story and the story 
of many of your Yazidi brothers and sisters whose voices are 
not being heard.
    My question is for Ms. Shireen about a comment that's very 
important that you made regarding that even if and when ISIS is 
defeated in Iraq, the ideology that has driven their genocide 
against religious minorities remains. How do you see that 
manifesting itself?
    And as the different communities begin to put the pieces 
back together in their lives, who can best influence these 
groups of people to defeat that ideology?
    Ms. Shireen. Thank you for your question. I think as we 
have seen as a terrorist attacked us, not only ISIS, but before 
ISIS there were other groups that attacked Yazidi villages. 
There was one explosion actually in one of the Yazidi towns in 
2007. It was one of the biggest ones in Iraq in the recent 
decade or so.
    Seeing that, after going back home it is hard for Yazidis 
to trust the same forces, the same leadership that was 
supposedly protecting us and left us within ISIS. So it is hard 
for the Yazidi community. They hope that the United States will 
take the leadership and make sure that security is provided for 
those religious minorities, not only Yazidis but others too.
    You know, so even with the liberated areas, for those 
families that are going back to their homes many are exploding, 
too, from the mines that ISIS left behind. As you saw in the 
video, Yazidi areas are not much different than Christian 
areas. They are basically destroyed. So people are not sure 
where to go.
    Just like how they destroyed the churches in Christian 
towns, they destroyed all of our temples. People are scared. 
They are traumatized to go back again unless they have some 
sort of security, they have some sort of guarantees. But some 
people don't have any other choices because they have been 
living in the camps for years now. And some just go back.
    And going back home is not easy because now the Yazidi 
homeland is divided between all different groups. It is the 
PMF, the Shia militia on one side, the Peshmerga on the other 
side. The Kurdistan Workers' Party (PKK) has taken a portion. 
And the Patriotic Union of Kurdistan (PUK) is there. And due to 
the political competition, not much can be done. Yazidis 
themselves can't do much for themselves while that political 
competition is ongoing.
    It is true that our areas were neglected before ISIS. We 
lived a simple life. It was not perfect but we were happy. But 
when ISIS came they destroyed everything. They destroyed, they 
shattered our families. They killed some and they abducted 
others. So, all we ask is to be able to live safely in our 
homes with dignity.
    And with that, I thank you very much for your time and for 
the opportunity to speak.
    Ms. Gabbard. Thank you.
    Lastly, Mr. Rasche, you know we have heard a number of 
times over the last several months from different officials 
within the State Department about this $100 million in 
assistance that they claim has been disbursed in Iraq for the 
religious and ethnic minority groups, including the Yazidis, 
Christians, and Shia. However, this number has never been 
quantified for us about how it has been delivered, how it has 
been delivered, what kind of impact it has made. And they have 
not provided an explanation about why this number dates all the 
way back to 2008.
    With a year on the ground you have got a close pulse on 
what is happening there. If you can provide any real view on 
this statement that the State Department continues to make?
    Mr. Rasche. Well, I think the--you mentioned, rightly so, 
that they had to stretch back to 2008 in order to get that 
number which I think is indicative of how far the reaches have 
to go in order to make it appear that things are really 
happening.
    I can simply say that on the ground we don't see it. And we 
tell people this. And when we tell them, we don't see this, we 
don't see this money that you say is being spent here, the 
response is generally, ``Well, it is being sent, it is being 
spent. We have a report that says so.''
    And this is the, this is a common response that we get. 
And, you know, it puts us in a difficult position because, 
sure, we don't want to spend our time bashing the U.N. We would 
like to be singing their praises. But at the same time, we are 
responsible for taking care of these people. And we see this 
work, it is objectively not happening the way it is being 
described.
    And I have just come back from a similar visit to the U.K. 
where we spoke with the DFID minister, their equivalent of the 
USAID. And they are having the same issue there trying to match 
the granularity of reports with what people are actually seeing 
on the ground.
    And so it is a common problem. I don't think it is just 
unique here to the U.S. And it has to do with the fact that the 
verification of this work is being left to the people who do 
the work. And that is not a system that you accept anywhere. 
And why we accept it in a situation where we are spending 
hundreds of millions of dollars and where people's lives are 
fundamentally at risk based upon the outcomes, it is, this is 
the heart of it.
    And as Congressman Wolf pointed out in his trip over there, 
you can't miss the disconnect that is going on between the 
reporting and what is actually happening on the ground. And the 
solution for that is better reporting by your own people. You 
cannot let the people doing the work report on what a great job 
they are doing because they are doing a great job always.
    Ms. Gabbard. Thank you.
    Mr. Garrett. I will yield back to the chair in a moment. 
But right now I have the microphone.
    So, there are a couple of observations I want to make real 
quickly and then thank you all. But, again, there is a sincere 
and literal invitation for each and every one of you to reach 
out to our office to the extent that there are actual, literal, 
concrete measures to be taken that are within the purview of 
this body. This is what I know is that I don't know what I 
don't know.
    You know, I see cameras in this room, and that is important 
because I think the world doesn't begin to grasp the scope. We 
spoke earlier of the Bosnian genocide. If you look at the 
displacement numbers externally, we are essentially the 
population of Wisconsin, to bring it home to the American 
viewing public. If you look at IDPs along with externally 
displaced individuals, you are at the population of Michigan. 
And that is a number that is sort of nebulous.
    The one thing that we have said repeatedly in this 
committee and this subcommittee is that the 5+ million 
externally displaced individuals have one thing in common, and 
that is that they don't want to be displaced; right? And that 
our job as a nation isn't to advocate on behalf of a specific 
faith, but it certainly is to advocate on behalf of human 
beings. So we should do a better job of that.
    I wonder in sort of the rhetorical sense, Mr. Rasche, just 
how much money of that $100 million is pay-to-play. 
Unfortunately, in this part of the world if we don't keep a 
close eye on where the money goes a lot of palms get greased 
before the assets ever hit the ground. And I would submit that 
as good stewards, hopefully, our tax dollars, that we shouldn't 
allocate funds that we can't assure are going to be spent 
responsibly because ultimately what we end up doing is 
enriching the very people who perpetuated the atrocities that 
we seek to correct.
    And, finally, I will say this: During my time in the 
Balkans I noticed a number of churches destroyed and a number 
of mosques destroyed. The common theme was that wherever there 
was a mosque destroyed there was a sign, white with green 
print, in multiple languages that said, ``This mosque being 
refurbished by the benevolent people of the Kingdom of Saudi 
Arabia.'' And there was no counter. Now, again, it is not the 
role of the United States Government to build churches, but it 
is the role of the United States Government to advocate on 
behalf of oppressed minorities, particularly in regions where 
we have created circumstances that might have helped perpetuate 
that oppression.
    So, I hope that you all will continue to do the good work 
that you do, that the American and global public will start to 
understand the scope and scale here, simply in terms of death 
toll of Yazidis and Christians who are in a circumstance that 
is twice that, based on the best numbers I can find, of the 
Bosnian genocide. And that doesn't begin to address millions of 
people who will perhaps, unfortunately, never see their homes 
again.
    So, again, thank you for your time. Thank you, Mr. Chair, 
for the gavel. And with that I will yield back.
    Mr. Smith [presiding]. Thank you very much, Mr. Garrett. 
Thank you for taking the gavel.
    I had to speak on H.R. 36, the Pain-Capable Unborn Child 
Protection Act, and my slot had come up. So I missed your oral 
presentation, Mr. Rasche, but I did read it. And was very moved 
by the detail that you have provided in this important 
testimony.
    So let me ask you, begin by asking you a couple questions 
about it. I would just point out for the record that when we 
held hearing after hearing, and you testified at two of them, 
we kept getting told by the Obama administration while we were 
looking into it ``we may get back, we will get back.'' And they 
never did.
    And then when I decided I have got to go look myself as to 
why this, this reluctance, this gross indifference to the 
Christians and the Yazidis who were working, and really 
surviving side-by-side in Erbil. We went around Christmastime. 
As a matter of fact the trip itself was postponed several times 
because of an inability on the part of the State Department to 
accommodate it. So I said even if we come on Christmas Day, we 
are coming. So, 2 days before Christmas we were there.
    When we got there we were told that an IDP camp that was 
about 10 minutes away from the consulate offices in Erbil, 
which had not been visited, until we were coming, by State 
Department people, I was told it was too dangerous to go there. 
And I said, ``Are you kidding me?'' I mean, ``Is there a 
personal threat directed against me and my delegation as to why 
we shouldn't go there?'' take threat assessments very 
seriously.
    But they said, ``No.''
    And I said, ``Well, I have been in refugee camps''--maybe 
not as many as Congressman Frank Wolf--but all over the world, 
in Darfur and all over the world.
    So we went. And Archbishop Warda drove. I sat to his side. 
We got there and we were met by very, very joy-filled people 
full of faith and hope, people who wondered why the United 
States Government was not helping them. And then we heard 
hundreds of children singing Christmas carols. And then I 
really felt threatened, you know, little 5-, 6-, 7-, 8-year-
olds singing Christmas carols a couple days before Christmas.
    It was an absurdity because, again, they had been, in my 
opinion, grossly indifferent to the plight and the needs that 
we had raised--and I am not the only one that raised it--so 
consistently over the course of several years.
    You point out, Mr. Rasche, that the excruciating decision, 
as you put it, whether continuing to keep people housed and fed 
versus the return issue. You point out that the lack of funding 
and other challenges mean that about 80, 90 percent of the 
majority Muslim people have returned home, whereas only about 
20 percent of the Christians. And I think that that tells a 
story in and of itself.
    As Ms. Ashburn pointed out in her testimony, not only were 
Christians killed and raped and mutilated, but churches were 
booby trapped, desecrated, statues of the Blessed Mother 
decapitated, all in a genocidal campaign against Christians as 
well as against Yazidis and others. But the focus numbers-wise 
obviously is toward the Christian churches.
    If you would just explain further this request that you 
have made. You did explain it somewhat in your testimony. How 
much money were you able to glean from the Knights of Columbus 
and others which was absolutely the bridge that kept people 
alive? And, again, the people I met with we went all over that 
refugee camp, or IDP camp I should say, they were all very 
thin. They looked relatively healthy. But they could use a lot 
more in medicines, food, shelter. They were cramped in very, 
very small quarters.
    And I know you have made a major effort to try to get them 
placed in better living accommodations. That is part of the 
plan that you have crafted so skillfully. But if you could just 
talk a little bit more about the Nineveh Reconstruction 
Committee, which you pointed out is doing very good work with 
the ecumenical partnership between the three largest Christian 
churches: The Chaldean Catholic Church, Syriac Catholic Church, 
and the Orthodox Church as well.
    Mr. Rasche. Sure, Mr. Chairman. Just real quickly then, in 
terms of the humanitarian aid over the past year, that, that 
aid came to us almost exclusively from the Aid to Church in 
Need and the Knights of Columbus. There were other church-
related groups that did continue to assist us. But in this last 
year for housing, food, medicine it was all church-related 
donations that kept us going.
    As we move into the situation now with the towns liberated 
and the people going into the fourth year in their displaced 
status we had to make a decision, would we continue supporting 
them in a displaced status or help to move them back into their 
homes? Ideally, we would have liked to have made a transition 
where they could rebuild their community and then move in as it 
was rebuilt.
    But because we had no funding to do this from anybody we 
had to short circuit it. And so we ended our housing program 
and told people, unfortunately, we have to begin moving you 
back whether your towns are ready for it or not, whether there 
is water there, whether there is power there, whether your 
building and your home is inhabitable or not. And we will be 
there beside you and do everything we can to make these houses 
habitable, and make these towns safe and operating as soon as 
we can. But it is clearly not the, not the best choice.
    We were helped tremendously in this project by the, by the 
Government of Hungary who showed--and of course the politics in 
the EU are quite complicated on this, and we don't look to make 
any judgment one way or another on that, except to say that the 
Government of Hungary, when nobody else would, stepped forward 
and provided us with the funds to save one town. It was the 
first town, the town of Teleskov. And it gave the people 
tremendous hope across the spectrum of the Christian 
communities hoping to return to Nineveh that something could be 
done, that there was an example where somebody stepped in. Hope 
was there.
    And we rebuilt that town. It is now, it is now a fully-
functioning town. Still much more work to do. But it is viable. 
It is a viable town there.
    And we asked the rest of the world. It was $2 million. It 
wasn't $50 million or $200 million, it was $2 million that 
moved the needle from being a town that was empty to a town 
that was viable. And why were we able to do it for $2 million? 
Because there is no middleman, there is no go-between. It came 
to the church. The church put it right in the hands of the 
people. The people started rebuilding their own homes. You 
would be surprised at how far $2 million can go when you put it 
into the hands of the homeowners themselves so that they can 
rebuild their own towns and get out of living in IDP centers.
    And, so, we have this example. And we intend to build on 
that with the Nineveh Reconstruction Committee. In addition to 
the $2 million that was initially put into Teleskov by the 
Hungarian Government, we have received a similar donation from 
the Knights of Colombus, $2 million for the town of Karamdes. 
And we have received another large amount from Aid to Church in 
Need to work on other towns in the other sectors.
    It still leaves us about $22 million short of finishing all 
of this. But $22 million we think we can, we can make all of 
these towns viable so that they can be held and not taken away 
by other groups that want to change their demographics.
    Mr. Smith. Shireen, you, and perhaps any of you who would 
like to speak to this, but several years ago I authored what is 
known as the Torture Victims Relief Act, and it provides 
assistance to torture victims in these centers to people who 
have undergone torture at the hands of a government or an 
organization. And I have learned from the hearings that we had 
during the markups, and there were four separate laws over the 
course of several years, the devastating impact psychologically 
from torture and maltreatment at the hands of ISIS, for 
example.
    And I am wondering what kind of help you have gotten. The 
physical scars are huge; the rapes, the brutality are horrific, 
but there is also the psychological consequences that often can 
be masked. And I am wondering, Shireen, have you been able to 
get help? And other Yazidis who have been horribly mistreated? 
And anyone else who would like to speak to this as well, is 
psychological help being provided, that may even be a hybrid of 
psychological and spiritual counseling, to help somebody 
through such a terrible memory?
    Ms. Shireen. Thank you for the question. What we went 
through, and not just me, other Yazidi girls and others in 
captivity, was very severe. And those who escaped, who were 
rescued and live in the camps do not get the help they need, 
you know.
    As I mentioned in my written statement to you on the type 
of the torture I faced in captivity, ISIS did an abdominal 
surgery on me. And I still today don't know why they did it and 
what it was for. And I went to doctors and still don't know why 
they did it.
    Mr. Wolf. Mr. Chairman, we spoke to a woman who had been 
sold 20 times. She now lives in a little room. She cannot go 
back to her community. Sir, there needs to be a grant for 
counseling for the Yazidi women and the other women. They need 
something to counsel them. And it ought to be bringing 
counselors on the ground so they can stay in their, their 
community.
    But they just come back. This woman is living in a little 
room. The Catholic Church over there is helping her. She can't 
go back to her community. It's a shame environment. So there 
needs to be something that we have been asking for a year to do 
something, and nothing happens.
    We met with the leader of the Yazidi community Baba 
Shaweesh who has a little program, but it's a little, little, 
little, little, little program. So there needs to be a major 
effort. These women have been--and we had a woman come by my 
office, Bazi. Anybody know Bazi? The person who had her and who 
was abusing her was an American citizen. He was an American. He 
used to show her on his cell phone pictures of his wife and 
children back in the United States.
    So we have a moral responsibility. Send over International 
Justice Network (IJN). Send over counselors. But there needs to 
be a major program. Frankly, I think this is a real test for 
Mark Green. When I saw Mark Green got this appointment I 
thought it was great. The success or failure of what takes 
place in Iraq for things like this may very well be on Mark 
Green. And if they fail, Mark Green will have failed.
    So this is a major program. And people talk about it but 
really not very much is really being done.
    Mr. Garrett. Mr. Chairman.
    Mr. Kasim. May I make a small comment? So, I am Shireen's 
interpreter today but I am an American citizen but I was born 
and raised in Iraq in Sinjar town. I worked for the U.S. 
military for 5 years, and that is how I came here.
    Mr. Smith. Why don't you identify yourself for the record?
    Mr. Kasim. My name is Abed, Abed Kasim.
    Mr. Smith. Thank you.
    Mr. Kasim. So I spent most of 2016 among IDP, like Mr. Wolf 
said. I mean those women, those girls who escape and survive 
from ISIS they have many needs. But it is hard to treat someone 
psychologically living in a small tent, knowing that their 
families are missing. They can't go back to their hometowns. 
They know that there are no other solutions for them. It's 
hard; they don't have any income.
    And so it is even some of those organizations like Mr. 
Rasche said, I mean the help is there but it doesn't get to 
them. You know, they spend millions of dollars through U.N. 
agencies but it really doesn't get to where it needs to go.
    Mr. Smith. Mr. Garrett.
    Mr. Garrett. I queried Congressman Wolf if there is any 
identifying information available to the American citizen who 
allegedly perpetrated those acts, and if it has been forwarded 
to the appropriate authorities? Because I, having spent nearly 
10 years as a prosecutor, can assure you that the wherewithal 
exists and there are means to ensure that that individual, if 
we can identify him and corroborate the allegations, never 
comes back to this country a free person.
    So, if you have that information, please get it to us if it 
hasn't already been forwarded to the appropriate law 
enforcement entities.
    Mr. Wolf. That is why Mr. Smith's bill, H.R. 390 is so 
important. It really aids to do that. I mean, there should have 
been FBI teams going through the tunnels now, dusting, 
fingerprints, everything, for our own national security, too. 
Because when I left this place in 2014, we funded the Bureau. 
The Bureau came by and told me there were 200 Americans who are 
over fighting for ISIS. There are a large number from other 
European countries.
    We should know who, who they are. There is a visa waiver 
program so if you are from another country in Europe you can 
fly in. So, Mr. Smith's bill, the bill that you all did, is 
exactly right on target for this. That is why it ought to be 
passed right away because it deals with aid and assistance to 
Steve's group, and the other group, and Yazidis and all. But it 
also deals with regard to prosecution.
    Mr. Smith. And as you know, Mr. Wolf, in the past the 
accountability piece has been left out. And that is why 
believing that if we don't have people who have committed these 
atrocities held to account, prosecuted, it leads to impunity. 
And to the victims it leads to a very real--from their point of 
view--an existential threat to their families and communities 
because the bad guys are still there. We have seen a lot of 
that happening in Srpska and elsewhere where they did not 
effectively go after the people who have committed these 
crimes.
    And the accountability piece, and thank you for 
underscoring it in H.R. 390, is intended to do just that. 
Information does fade. Facts that need to be, to be used in a 
prosecution are lost unless you actively, you know, retain them 
in a way that can be used in a prosecution.
    Ms. Shireen in your written testimony you said that Abu 
Ali, an ISIS member who organized your kidnaping and 
enslavement, is living in an IDP camp near Mosul. And I am 
wondering if you have told any government officials from Iraq, 
the U.S., or elsewhere about him? And how did they respond and 
did they say they would do anything?
    Ms. Shireen. Yes, that is true. I recognized him when he 
was being interviewed, fleeing among civilians from Tal Afar. 
He is the one that is responsible for selling me and many other 
Yazidi girls, along with another guy from Tal Afar Haji Mahdi. 
And I saw him, I recognized him once I saw him on T.V. And 
there are many like him that are just getting away with what 
they did to Yazidis.
    Mr. Smith. And did you convey that information to any 
official, U.S. or otherwise?
    Ms. Shireen. Yes, I am hoping to speak to someone about 
what I know about him but I haven't yet. [Shows photos.] In 
these pictures my family members who are missing, some of them. 
And this is me when I escaped from ISIS among the other 
survivors.
    But that guy was responsible for what happened to me and my 
family.
    Mr. Smith. Let me just ask, Mr. Wolf, if I could, thank you 
for your idea of the interagency coordinator. I think that 
especially in this administration where it does not have the 
equivalent of the NCO Corps, no head is around unless it has 
non-commissioned officers. The secretary, assistant secretaries 
and the real policy people, the nuts and bolts of the State 
Department and USAID are not in place. It took months for Mark 
Green to get in place. He has only been there for several weeks 
now.
    So, I think the importance of an interagency coordinator, 
your idea, I think is absolutely compelling. And we will 
certainly do everything we can to push that. And I thank you 
for that. And you might want to elaborate on it because, again, 
we are on automatic pilot right now with the Obama policies.
    Mr. Rasche will tell you, they have not gotten aid. I 
remember when I met with some of the high clerics during our 
visit they were grateful that finally there would be an end of 
the gross indifference to the Christians and the Yazidis in 
Erbil. And, unfortunately, it is continuing through negligence, 
or whatever the reason is. And it is about time. The bill would 
mandate it. It would finally get us to where we want to be.
    And, again, you might want to make, as I have done as 
recently as 4 hours ago, another appeal to the Senate to bring 
that bill to the Floor. It is out of the Foreign Relations 
Committee. It has bipartisan support from the Senate side. Just 
put it to a vote by unanimous consent or any other means that 
they deem appropriate, but get it voted upon.
    Then it comes back here with some tweaks. We pass it, 
hopefully almost immediately, it is down to the President and a 
gaping hole that has been an unmet need for years will finally 
be met.
    So, if you wanted to elaborate on your coordinator idea, 
Mr. Wolf, because we need a point person who can get the job 
done. We talked about Senator Danforth. That lead to the 
comprehensive peace agreement. Without him there was no 
comprehensive peace agreement and the war between the north and 
the south, would have persisted, and had already claimed 2 
million dead, 4 million displaced at the time. He came in and 
was the key to making that happen.
    So your idea is extraordinary.
    Mr. Wolf. Well, I think that is what you need. And 
personnel is policy. And if the President and Secretary 
Tillerson does it in the White House that will send a message 
to all the career people, will send a message, also, it will 
send a message to the Yazidi community in Iraq. It will send a 
message to the Christian community in Iraq. It will send a 
message to the world.
    And, frankly, to these people that did that to her ought to 
be prosecuted. And we should learn from history. After the 
genocide the Nazis embedded in and went different places. We 
had to track them down. We had a Justice Department office that 
tracked them down. Rwanda, did the same thing. Srebenica, some 
of the Croats and some of the Serbs got embedded in and moved 
all over. We had to track them down. We should be tracking this 
guy down.
    There should be a team going out and arresting that guy 
now, taking him, taking him to the International Criminal 
Court. If we know he is in a refugee camp, and who is paying 
for that refugee camp? The U.N. And who is getting the money 
from the U.N., who is paying the U.N., ah, the United States 
Government. So, maybe are you saying the United States 
Government is funding a camp where a man that did this to her 
is living?
    Well, I tell you, boy, you, you need somebody really strong 
that could go in and sit down with the President, can sit down 
with Tillerson, can sit down with everybody to get this done. 
That is unacceptable. I didn't know that. You guys ought to be 
calling the FBI today and sending the FBI legal attache over 
there and going into that camp and taking that guy out by his 
collar and bringing him back to the United States or take him 
to the Criminal Court. My goodness, I can't believe that.
    Mr. Garrett. Mr. Chairman.
    Mr. Smith. One second before I yield to my friend.
    David Crane, the former Chief Prosecutor for the Sierra 
Leone Special Court which put Charles Taylor, the President of 
Liberia, behind bars for 50 years, which is where he is now at 
The Hague, he is not only in favor of our bill, he has been a 
strong advocate and helped us, you know, in fashioning some of 
the language, he has made clear, right there where you sit as a 
witness, that without accountability a random impunity will 
occur and people will say, I can do whatever I want. I can 
rape, kill, maim, all kind of atrocities without there being a 
accountability in terms of a jail term.
    So, again, H.R. 390 couldn't be clearer in its 
accountability piece. Its focus is humanitarian and on 
accountability. And, again, it is just waiting to be passed on 
the Senate side. And, hopefully, they will do it this week.
    My colleague.
    Mr. Garrett. Let me say this, again, I get passionate about 
some things. And having been a prosecutor for about a decade I 
get passionate about this stuff.
    This bill is important. We need to pass this bill. But I 
looked through U.S. Code 2330 or 2339, Subs A through D, and 
2332, and I will tell you that I could put the American citizen 
into the prison today with the laws that are already on the 
books. So I would ask the subcommittee chair if it might be 
possible to convene a hearing, perhaps in public and perhaps in 
private, to assess--and because I have seen this from my work 
in Homeland Security as well, American citizens who travel 
abroad, and we have ways of knowing who they are. What is being 
done? Well, you know. To try to identify these individuals and 
bring them to justice.
    At the very least, the fact that someone would flaunt their 
citizenship as they exploited a person who had been sold into--
I won't describe in detail the type of conditions--is beyond my 
ability to wrap my brain around in the year 2017. And but there 
are apparatuses at our disposal now. We need to make it a 
priority. And I think this committee might take a step in that 
direction.
    And, again, I am a co-sponsor of the bill. It's a great 
bill. You give me the forum in a criminal Federal court in the 
United States and I can, and I can take care of these guys with 
the laws that are already on the books. Why aren't we doing it?
    And this is the second time, once in Homeland and once in 
this committee, where I found out about Americans allegedly 
cavorting with the likes of ISIS abroad where people are like, 
``Well, you know.'' Inexcusable. And it needs to a priority. If 
we get that individual and leadership, that liaison to the 
White House, it needs to be a priority.
    Thank you.
    Mr. Smith. Anything else, because we do have a vote? We 
have about 3 minutes left before we have to be on the Floor.
    Mr. Rasche.
    Mr. Rasche. If I may, Mr. Chairman, this is on topic here 
but it is a message to your committee from the heads of the 
Christian churches of the Kurdistan region. And it is a special 
plea in the continuing tension between Baghdad and Erbil 
resulting from the Kurdish referendum. They are pleading with 
the United States Government to exercise all options possible 
to make sure that this does not deteriorate any further.
    There is a real, real concern that hostilities may break 
out. And they are pleading with the U.S. to exercise whatever 
authority and influence it has to make sure that this gets 
solved by peaceful dialog. Because if there is fighting to 
break out, it will happen right on top of these Christian and 
Yazidi communities.
    I have been asked to put that, put that to you directly.
    Mr. Smith. Thank you. Well put, and we will follow up. And 
I deeply appreciate it.
    Without objection, testimony from the Yazidi Global 
Organization will be made a part of the record.
    And, again, I want to thank our very distinguished 
witnesses for your extraordinary testimony, the work that you 
are doing.
    I had some other questions for Ms. Ashburn. One of them was 
why the other people in the media have not been bringing the 
visibility and the light to the plight of the Christians. I 
think it has been appalling as well. But, thankfully, you have. 
And I deeply, and we all deeply appreciate that.
    I want to thank all of you for your testimony. Because of 
the vote we do have to conclude. And this hearing is adjourned.
    [Whereupon, at 1:44 p.m., the subcommittee was adjourned.]

                                     
                                     

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
